                                                                                         November 5, 2012

Memorandum

To:             Robert M. Scruggs
                Deputy State Director, Division of Support Services
                Nevada State Office, Bureau of Land Management

From:           Suzanna I. Park
                Director of External Audits

Subject:        Management Advisory – Issues Identified During our Audit of Nevada Fire
                Safe Council Claimed Costs under Cooperative Agreements with Bureau of Land
                Management from January 1, 2008, Through February 29, 2012
                Report No. K-MA-BLM-0005-2012

       The Bureau of Land Management (BLM) request to audit the Nevada Fire Safe Council
(NVFSC) included a request to identify findings for process improvement. We also provide
suggestions to detect and prevent future deficiencies.

        BLM failed to effectively monitor NVFSC and as a result did not prevent or detect the
numerous reporting and internal control problems. NVFSC’s financial management system was
inadequate to support the drawdown of Federal funds. We also noted numerous instances of
inadequate or missing documentation to support costs, duplicate drawdowns, math errors, and
unpaid amounts billed to BLM. In addition, we found weaknesses such as improper segregation
of duties, commingling of funds, and inadequate policies and procedures.

        The effective monitoring of financial assistance is achieved through a plan that includes:

                •   using audits and financial status reports to provide valuable information about
                    recipients;
                •   reviewing costs incurred through examination of drawdowns; and
                •   ensuring performance results through phone calls, desk reviews, and site
                    visits.

Lack of Monitoring

Single Audits

        The Office of Management and Budget Circular A-133 requires all non-Federal entities
that expend $500,000 or more in Federal awards in 1 year to obtain an annual Single Audit
within 9 months after the end of the that year. The NVFSC Single Audits for 2007 to 2010 were
not filed until March 2012.


                           Office of Audits, Inspections, and Evaluations | Reston, VA
        These Single Audits identified significant deficiencies and material weaknesses that
indicated the internal controls were deficient—weak internal control over invoicing, improper
segregation of duties, services incurred and paid to vendor outside of funding period, inefficient
monitoring of budgets, and request for funds noncompliant with Federal laws. If BLM had
adequately monitored the Single Audit requirement, these audits would have been filed and
reviewed on a timely basis. BLM could have addressed these deficiencies starting in 2008 and
prevented most of the $1,544,220 in questioned and unsupported costs we identified in our audit
report.

Quarterly Status Reports

        BLM required NVFSC to submit quarterly status reports. These reports included a
quarterly budget, quarterly project status, project/cost tracking, and the Federal Cash Transaction
Report (SF-272). BLM did not monitor this reporting requirement from 2008 to 2012, allowing
NVFSC’s non-compliance to go undetected.

Federal Financial Reports

       According to the Code of Federal Regulations, 2 CFR § 215.52(a)(1)(iii), the SF-425 is
required to be filed at least annually. BLM did not adequately monitor this reporting requirement
from 2008 to 2011. NVFSC did not submit any Federal Financial Reports (SF-425s) for this
period until requested by BLM in September 2011.

       In addition, during our testing of drawdowns, we identified matching funds, in-kind
contributions, and potential program income that were not included in the SF-425, resulting in
the understatement of reported expenditures. If BLM had properly monitored the application
process, they may have anticipated matching funds, in-kind contributions, and program income
on the SF-425.

Promising Practices

Pre-Award

        Pre-award assessments are essential to reducing risk when awarding financial assistance.
The recipient’s capability to account for funds should be evaluated prior to awarding financial
assistance. An assessment helps ensure that an applicant has adequate financial management
systems and enables awarding agencies to decide whether to award the financial assistance and
whether conditions should be added. Assessments provide confidence to management that
recipients have the required financial systems, and they allow management to plan the
appropriate level of recipient oversight.

        The Association of Government Accountants, in cooperation with the U.S. Office of
Management and Budget, created a financial and administrative monitoring tool. This
comprehensive tool would provide BLM an excellent way to assess the financial management
system of applicants. A risk assessment score could then be developed to help determine the
level of monitoring the applicant would require. For example, higher risk applicants may require

                                                 2
site visits for reviewing their financial management system as well as requiring documentation
for all drawdowns.

        One promising practice we identified was the Environmental Protection Agency’s
requirement of a uniform, pre-award evaluation of applicants. Applicants are required to answer
questions regarding financial management systems, property and procurement standards,
assigned personnel, and travel policies. If the evaluation indicates any weaknesses, the award
official must impose conditions to be completed before the funds are awarded. The applicant
must address weaknesses within a specified time and inform the agency of corrective actions.

        The National Science Foundation has applicants submit a questionnaire on accounting,
timekeeping, and funds management. Depending on the severity of the problems identified, the
agency can take a range of corrective actions, from requiring a recipient to update their time-
reporting systems to not making the award.

Post-Award

        Post-award monitoring, including the timely receipt of financial records and reports from
financial-assistance recipients, is important for effectively managing financial assistance.
Ineffective financial assistance monitoring increases the risk of improper payments and untimely
expenditures. Agencies have addressed this issue through on-site reviews and development of
systems that make financial information readily available to staff.

        The Environmental Protection Agency requires staff to perform desk or on-site reviews
on 10 percent of all grantees each year. These reviews include an analysis of grantee financial
systems, including timekeeping and drawdown procedures. Based on the results of the review,
the grantee may be required to prepare an action plan to correct any deficiencies. These reviews
help ensure that the grantee has an adequate financial system and is properly using the funds.

        The U.S. Department of Education uses the Single Audit reports for identifying at-risk
grantees. The agency reviews the audit report and determines whether there is increased risk with
the grantee and if additional monitoring is required. A grantee may also be considered at-risk and
need additional monitoring if it has not submitted the required Single Audit report. If a grantee is
considered high risk, it is entered into the grant management system and the system alerts staff to
the high-risk status.

U.S. Department of the Interior Guidance

        Many of the above promising practices are reflected in The Office of Acquisition and
Property Management (PAM) U.S. Department of the Interior Guidance Release 2011-03,
“Financial Assistance Monitoring Protocol.” This policy conveys the expectations of the
Department and PAM that bureau and office heads hold recipients accountable for the timely
receipt of financial and programmatic reports; proactively address recipient problems; and ensure
that public funds are properly expended. The policy implements mandatory use of pre-award risk
assessment checklist and post-award monitoring.




                                                 3
Potential Conflict of Interest

         A BLM employee was elected as Secretary of NVFSC’s Board of Directors in April
2009. The employee prepared the minutes from February 2010 to August 2010 and October 2010
to May 2011. On May 8, 2012, we notified BLM of this situation and they submitted an inquiry
to their Office of Law Enforcement. A determination has not been made as of the date of this
report.

Suggestions

       We suggest that BLM officials take the following actions:

           (1) Develop a system that tracks the due dates of each recipient’s Single Audit,
               SF-425s, and other reporting required by the financial-assistance agreements.
               Once the reports are received, they should be thoroughly reviewed for adequacy
               and appropriate action should be taken for identified issues.

           (2) Implement DOI “Financial Assistance Monitoring Protocol” and consider other
               promising practices.

           (3) Document the determination of the conflict of interest issue in the agreement files.

       We did not conduct the management advisory in accordance with standards, such as the
Government Auditing Standards issued by the Comptroller General of the United States or the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency.
We did, however, plan and perform research to obtain sufficient, appropriate evidence to provide
a reasonable basis for our conclusions. We do not require a formal response to this advisory, but
we would appreciate being apprised of any actions that BLM takes on this issue.




                                                4
